 U.S. DEPARTMENT OF COMMERCE
           Office of Inspector General




TOP TEN MANAGEMENT CHALLENGES
                     March 2005
Department of Commerce                               Office of Inspector General
                  March 2005 Top 10 Management Challenges



MAJOR CHALLENGES
FOR THE DEPARTMENT
The Office of Inspector General, in assessing its work at the close of each semiannual
period, develops its list of Top 10 Management Challenges the Department faces. Each
challenge meets one or more of the following criteria: (1) it is important to the
Department’s mission or the nation’s well-being, (2) it is complex, (3) it involves sizable
resources or expenditures, or (4) it requires significant management improvements.
Because of the diverse nature of Commerce activities, these criteria sometimes cut across
bureau and program lines. Experience has shown that by aggressively addressing these
challenges the Department can enhance program efficiency and effectiveness; eliminate
serious operational problems; decrease fraud, waste, and abuse; and achieve substantial
savings.




                  TOP 10 MANAGEMENT CHALLENGES
  1.    Strengthen Department-wide information security.
  2.    Effectively manage departmental and bureau acquisition processes.
  3.    Enhance USPTO’s ability to manage and operate its own processes.
  4.    Control the cost and improve the accuracy of Census 2010.
  5.    Monitor the effectiveness of NOAA’s ocean and living marine resources
        stewardship.
  6.    Promote fair competition in international trade.
  7.    Enhance export controls for dual-use commodities.
  8.    Enhance emergency preparedness, safety, and security of Commerce
        facilities and personnel.
  9.    Continue to strengthen financial management controls and systems.
 10.    Continue to improve the Department’s strategic planning and
        performance measurement in accordance with GPRA.




                                            1
Department of Commerce                               Office of Inspector General
                  March 2005 Top 10 Management Challenges


CHALLENGE 1

STRENGTHEN DEPARTMENT-WIDE INFORMATION
SECURITY
In FY 2005, the Department will spend some $1.4 billion of its $5.7 billion budget on
information technologies and related security. Sys tems supporting NOAA’s ocean and
environmental missions, the Census Bureau’s statistical operations, and BIS’ export
control activities are just a few of Commerce’s many critical information assets that
provide data and operations essential to the nation’s well-being. Despite improvements in
cyber security over the years, Commerce continues to face significant challenges in
adequately protecting its systems and data from loss or compromise.

For the past 4 years we have advised the Department to report information security as a
material weakness, based on the findings of our annual review mandated by the Federal
Information Security Management Act of 2002 (FISMA). 1 The Department has reported
it as such in its Performance & Accountability Report for all 4 years.

Our most recent FISMA evaluation continued to identify problems with certification and
accreditation (C&A) in many of the Department’s operating units, particularly in their
conduct of such critical C&A activities as assessing risk, accurately identifying system
components, and testing security controls. When implemented properly, certification is a
powerful tool for helping ensure that appropriate security controls are in place,
functioning properly, and producing the desired outcome. Through accreditation, agency
officials formally accept responsibility for the security of the systems over which they
have management, operational, and budget authority and for any adverse impacts to the
Department should a breach in security occur.

In February 2005, the Department’s Chief Information Officer issued a plan to address
the material weakness. The plan’s goal is to ensure that sufficient progress is made to
eliminate the basis for the IT security material weakness by the end of FY 2005. It
focuses on putting in place repeatable processes that produce acceptable quality C&A
packages in all operating units and completing packages for all national-critical systems
and some mission-critical systems by fiscal year-end. It includes schedules that were
developed in collaboration with the operating units and plans of action and milestones to
track progress. It also provides for increased oversight by the Department and bureau
CIOs. The Department CIO believes the plan establishes achievable schedules and an
approach that will yield acceptable quality C&A packages. We have not yet had the
opportunity to review the schedules.


1
  FISMA provides a comprehensive framework for ensuring that information resources supporting federal
operations and assets have effective security controls. The act requires OIGs to perform independent
security evaluations of their agencies annually.



                                                  2
Department of Commerce                               Office of Inspector General
                  March 2005 Top 10 Management Challenges


Department-wide Contract Security Deficiencies Remain

Last fiscal year, to help Commerce secure information and information systems handled
by contractors, we recommended that it take steps to incorporate its two new security
clauses 2 into service contracts and provide appropriate contract oversight. (See
September 2004 Semiannual Report, page 43.) The first clause contains requirements for
protecting Commerce information resources used by contractors, as well as contractor-
owned systems that interconnect with a Department network or store or process
Commerce data. The second clause requires appropriate background investigations and
IT security awareness training for contractor personnel who access Commerce systems.

In response to our recommendations, the Department’s acquisition management and CIO
offices reviewed a sample of IT service contracts and presented their results in the annual
Department of Commerce IT Contract Compliance Review Report.3 The review looked at
80 of the Department’s nearly 2,600 IT service contracts, found that only 29 percent of
the sample contained both security clauses, and noted considerable confusion among
contracting officials regarding their applicability. These findings point to the need for
further efforts to clarify the clauses and ensure their appropriate inclusion in contracts. In
addition, it is not clear whether the Department has identified all contractor operations
and facilities subject to IT security safeguards (i.e., all those connected to Commerce
networks or that process or store sensitive Commerce information). As part of our
FISMA work this fiscal year, we are reviewing IT service contracts for this purpose as
well as to determine whether such contracts incorporate and appropriately implement the
security clauses.




2
 Issued in November 2003 by the Office of Acquisition Management.
3
 Department of Commerce IT Contract Compliance Review Report, prepared for U.S. Department of
Commerce, Office of the Chief Information Officer, Office of IT Security, Infrastructure and Technology,
by GNS, Inc., Germantown, MD, September 30, 2004, ITCR-2004-004-001.


                                                    3
Department of Commerce                               Office of Inspector General
                  March 2005 Top 10 Management Challenges




CHALLENGE 2

EFFECTIVELY MANAGE DEPARTMENTAL AND
BUREAU ACQUISITION PROCESSES
                                     The Department spends more than $1.75 billion
                                     annually—nearly 30 percent of its budget—procuring
                                     goods and services. Yet for Commerce and most other
                                     federal agencies, effective acquisition management has
                                     been a long-term problem, and both OMB and the
                                     Government Accountability Office fault agencies for
                                     inadequate oversight of procurements.

                                 Commerce has acknowledged the need for better
NOAA’s Geostationary Operational acquisition planning and management, and has taken
Environmental Satellites orbit the
earth monitoring impending
                                 steps to improve. These include increasing training for
severe weather conditions. The   contracting officer representatives and other contracting
first GOES was launched in 1974. professionals, and creating an intradepartmental task
NESDIS currently is acquiring
several additional GOES through  force to develop guidance for standardizing the
NASA.                            interagency agreement process Department-wide. But our
Source: www.nosa.noaa.gov/       reviews continue to identify weaknesses stemming from
descriptions/nesdis/goes.html.   inadequate oversight of one or more aspects of the
                                 acquisition process—solicitation; development of clear,
                                 consistent contract specifications; open and rigorous
competition to secure best value; and contract management. For example, our recent
audits of three task orders for $17.6 million in IT services issued under a Census Bureau
contract questioned a total of $8.5 million in unsupported or unapproved costs.

With numerous high-cost acquisitions planned for the coming years, the Department must
continue to give careful attention to its acquisition policies and procedures to protect the
investment of public dollars and ensure best value. NOAA’s planned acquisition of
geostationary operational environmental satellites (GOES-R project) is one such
procurement that will bear close watching. This project will be the largest single
acquisition contract NOAA has ever awarded—with total cost expected to exceed $4
billion.




                                                4
Department of Commerce                               Office of Inspector General
                  March 2005 Top 10 Management Challenges


CHALLENGE 3

ENHANCE THE U.S. PATENT AND TRADEMARK
OFFICE’S ABILITY TO MANAGE AND OPERATE ITS
OWN PROCESSES
USPTO continues its transformation to a performance-based organization that, like a
business, has the flexibility to adapt to changing market forces and meet the needs of
consumers. Controlling its budget, procurements, and personnel decisions offers the
agency opportunities for operational efficiencies and strengths, but brings new
management challenges as well.

Our recent work on patent examiner production goals, performance appraisal plans, and
awards; USPTO’s new headquarters complex; and its Office of Human Resources
identified problems that could potentially undercut its efficiency as a performance-based
organization. (See September 2004 Semiannual Report, pages 38-40.) To improve
examiner production, we recommended that USPTO consider revising patent examiner




     USPTO’s new headquarters in Alexandria, VA.
     Source: USPTO.


goals to reflect efficiencies in automated work processes and evaluate its patent examiner
award system to determine whether a more effective way of increasing production exists.
USPTO concurred with our recommendations and agreed to reassess the current patent
examiner goals, performance, performance appraisal plans, and award system.


                                                   5
Department of Commerce                               Office of Inspector General
                  March 2005 Top 10 Management Challenges



Our report on the agency’s move to its new headquarters recommended that USPTO
finalize an occupancy agreement with the General Services Administration and submit
the required documentation for additional space to accommodate future staff growth.
USPTO’s current complement of staff will fill all available space in the new complex.

Finally, our audit of Office of Human Resources activities concluded that USPTO had
ignored hiring practices, merit system principles, and sound human resource policies and
procedures when recruiting a new personnel director. The agency was generally
receptive to our recommendations for improving administration of human resources, but,
unfortunately, our ongoing work continues to reveal serious problems in its personnel
practices, which must be resolved. USPTO anticipates hiring hundreds of examiners and
other staff in the coming fiscal year. It is crucial that its policies and practices for doing
so comply with all applicable federal requirements.

We will continue to monitor the agency’s handling of critical functions, its success at
using its flexibilities as a performance-based organization, and any related impacts on the
effectiveness of its operatio ns.


CHALLENGE 4

CONTROL THE COST
AND IMPROVE THE
ACCURACY OF CENSUS
2010
Commerce is at the midpoint in its
decade-long preparations for the 2010
decennial. With estimated costs of more
than $9 billion, 4 this decennial census is
one of the most costly operations—and
among       the      most     critical—the
Department undertakes.

The Census Bureau’s plans and
activities for the upcoming decennial
remain a major focus of our work, as we
monitor its attempts to capitalize on new
technologies. Our assessment of the           Enumerators tested the feasibility of using
                                              handheld computers to gather census data in the
2004 census test found that handheld          2004 test. Refinements to the process will be tested
computers and related automation are          in 2006.
                                              Source: U.S. Census Bureau.
4
    In constant 2000 dollars.


                                              6
Department of Commerce                               Office of Inspector General
                  March 2005 Top 10 Management Challenges


promising replacements for paper-based processes, and that the enumerator workforce
was able to use the devices. This was the first of two scheduled site tests of concepts,
systems, and procedures being evaluated for the 2010 census. (See September 2004
Semiannual Report, page 20.) But we noted problems with data transmissions, technical
field support, enumerator training, testing of revised group quarters definitions, and
various management and administrative activities. These must be resolved for the bureau
to meet accuracy and cost-containment goals.

We have initiated work to assess the bureau’s response to our recommendations
regarding efforts to improve the master address file. 5 We are also reviewing the bureau's
Field Data Collection Automation (FDCA) program—a massive effort to acquire and
manage field automation for the 2008 dress rehearsal and 2010 census. The Census
Bureau had intended to develop FDCA in- house with cont ractor support. But in early
2004, Census determined that it did not have the technical resources to do so while
simultaneously supporting the 2004 and 2006 field tests. Consequently, the bureau plans
to hire a contractor to develop, test, and deploy technology and provide support services
for 12 regional centers and more than 450 local census offices, which at their peak,
support more than 500,000 temporary field staff employees.

We will soon begin work on the 2006 census test, which will include follow-up on issues
identified in our report on the 2004 test (Improving Our Measure of America: What the
2004 Census Test Can Teach Us in Planning for the 2010 Decennial Census, OIG-
16949/September 2004).


CHALLENGE 5

MONITOR THE EFFECTIVENESS OF NOAA’S
STEWARDSHIP OF OCEAN AND LIVING MARINE
RESOURCES
The U.S. Commission on Ocean Policy, in its final report—An Ocean Blueprint for the
21st Century—pointed to NOAA’s critical role in protecting our nation’s ocean and
coastal resources. As the lead agency for marine resource protection, NOAA
encompasses the single largest number of civilian ocean programs, and the commission
report envisioned these responsibilities expanding.

We plan to give close attention to a number of NOAA’s broader environmental
stewardship responsibilities in the coming years, targeting such high-profile activities as,
Coastal Zone Management, the National Estuarine Research Reserve System, National
Marine Sanctuary programs, and the Pribilof Islands restoration project. We may also

5
 U.S. Department of Commerce Office of Inspector General, A Better Strategy Is Needed for Managing the
Nation's Master Address File, Report Number OSE-12065/September 2000.


                                                  7
Department of Commerce                               Office of Inspector General
                  March 2005 Top 10 Management Challenges


focus on NOAA’s coral reef, aquaculture, and marine debris responsibilities; expansion
of the tsunami detection and warning system; and the proposed Integrated Ocean
Observing System.

Our series of reviews of salmon recovery programs continued during this semiannual
period with audits of three more programs funded by NOAA’s Pacific Coastal Salmon
Recovery Fund. As with the audits we detailed in our September 2004 semiannual report
(pages 31-32), we questioned significant costs and noted administrative weaknesses in
two of the programs we reviewed. We are working with NOAA to resolve any common
problems we identify with administration of these grants as our series progresses.

Other key areas we hope to focus on include the effectiveness of specific areas of
scientific research and research management at NOAA, including the agency’s process
for maintaining scientific integrity and quality.




                   NOAA has been removing thousands of tons of debris, contaminated
                   soil, and inactive landfills from the Pribilof Islands Environmental
                   Restoration Project. The U.S. Fish and Wildlife Service Vessel
                   PENQUIN II, seen here off a cobblestone beach in the Pribilof Islands,
                   supplies everything needed by the Aleuts who live there.

                   Source: NOAA photo library.




                                               8
Department of Commerce                               Office of Inspector General
                  March 2005 Top 10 Management Challenges




CHALLENGE 6

PROMOTE FAIR COMPETITION IN INTERNATIONAL
TRADE
The Department of Commerce, through ITA, is charged with promoting trade, opening
overseas markets to American firms, and ensuring compliance with U.S. laws designed to
protect U.S. industry from unfair competition from imports. As foreign exporters
continue to spawn aggressive strategies targeting lucrative American markets, ITA’s
mission becomes ever more difficult and the need for a strong response, imperative.

During this semiannual period, we assessed ITA’s management of the administrative
review program for antidumping 6 duty orders, a function of the agency’s Import
Administration (IA). Administrative reviews determine the final duty rates on imports
from a specific country that have been found previously to be dumped in U.S. markets.
We found, among other things, that the agency needs to strengthe n its policies,
procedures, and standards for conducting these reviews and improve several
administrative practices.

In upcoming reporting periods, we plan to assess the Department’s efforts to expand U.S.
market opportunities and overcome trade barriers in some of the most difficult and
potentially rewarding foreign markets—China, Russia, and perhaps some South
American countries. We will continue to monitor the effectiveness of overseas posts and
domestic U.S. export assistance centers in helping U.S. companies compete for market
share abroad, assess customer satisfaction with ITA products and services, and evaluate
ITA’s export success reporting—one of its key performance measures. Our inspections of
post activities in Turkey, Greece, and India and our reviews of export assistance centers
in Chicago, the Pacific Northwest, and Philadelphia identified problems with export
success reporting, including inaccurate and overstated U.S. value and unverifiable
success stories (see March and September 2004 Semiannual Reports, pages 24 and 25,
respectively). In response, ITA has taken a number of steps to improve quality controls,
oversight, and management accountability for the accuracy and integrity of export
success reports. We will continue to monitor these areas, including ITA’s financial
controls and resource management, and will report on the Department’s efforts to resolve
issues we identify.

We also intend to build on our survey work at the Import Administration by looking at
the verification process for antidumping cases, and to assess ITA’s new Manufacturing

6
  The U.S. antidumping statute is designed to prevent foreign firms from selling a good in the United States
at prices below those at which the good is sold in their home market, or, in some limited instances , below
the cost of production.


                                                     9
Department of Commerce                               Office of Inspector General
                  March 2005 Top 10 Management Challenges


and Services Unit and its efforts to enhance competitiveness of U.S. manufacturers and
industry.


CHALLENGE 7

ENHANCE EXPORT CONTROLS FOR DUAL-USE
COMMODITIES
Commerce must balance the nation’s economic interests in increasing trade with the
realities of national security by controlling the export of technology and materials that
have both civilian and military applications. The Bureau of Industry and Security (BIS)
oversees the federal government’s export licensing and enforcement system for these
dual- use commodities, and we devote considerable, ongoing attention to its efforts.
Rogue countries and terrorist groups pose great threats to U.S. national security and
foreign policy goals. A strong, effective export control system is essential to keeping
sensitive items and technology from those seeking weapons of mass destruction.


NDAA Reviews

The National Defense Authorization Act (NDAA) for Fiscal Year 2000, as amended,
directed the inspectors general of Commerce, Defense, Energy, and State, in consultation
with the directors of Central Intelligence and the Federal Bureau of Investigation, to
report to Congress annually (through 2007) on the adequacy of export controls and
counterintelligence measures in preventing the acquisition of sensitive U.S. technology
and information by countries and entities of concern.

To meet NDAA’s FY 2005 requirement, we assessed BIS’ licensing process for chemical
and biological commodities to determine whether the process is timely, complies with
statutory and regulatory requirements, and considers the cumulative effect of prior
technology transfers to end users. We also assessed information sharing among the
various agencies involved in reviewing licenses, their process for resolving disputes, and
BIS’ procedures for revising the Commerce Control List.




                                           10
Department of Commerce                               Office of Inspector General
                  March 2005 Top 10 Management Challenges



                                  Examples of Dual-Use Technologies
                     Technologies        Civilian Use        Military Use
                                         Earth Observation
                                                             'Spy' satellites for
                                         satellites for
                     Remote sensing                          combat intelligence,
                                         weather
                     (Optical Radar)                         arms control verification,
                                         forecasting,
                                                             etc.
                                         mapping, etc.
                                         Space
                                         transportation
                                                             ICBMs (Intercontinental
                                         systems
                     Advanced ballistics                     Ballistic Missiles); short
                                         (launchers);
                     and missiles                            range surface-to-surface
                                         sounding rockets
                                                             missiles
                                         (for microgravity
                                         experiments)
                                         Aerospace
                     Biotechnologies     medicine; medical   Biological weapons
                                         research
                                         Telephony,
                     Satellite
                                         Internet,           Military communications
                     communications
                                         broadcasting
                    Source: http://www.futuraspace.com/Dual_Use_fact_sheet.htm.



NDAA for FY 2001 requires the IGs to also report on the status of recommendations
made in prior-year reviews. This year’s follow- up covered reviews conducted from 2001
through 2004 (no recommendations remain outstanding from our FY 2000 report). We
were pleased to find that Commerce made progress on a number of outstanding issues,
but some key recommendations remain unresolved.

With regard to our 2004 NDAA review, which looked at whether deemed export
controls 7 are effective in preventing the inappropriate transfer of sensitive technologies to
foreign nationals in the U.S., we are encouraged by BIS’ bolstered commitment to
enhancing its administration and enforcement of these controls. We believe the bureau’s
increased attention to the problems we identified—along with greater awareness among
industry, academia, and federal research laboratories—will result in greater compliance
and reduce opportunities for inappropriate transfer of protected technology and
information. (See March 2004 Semiannual Report, page 14.)

BIS must remain vigilant in targeting federal licensing and enforcement efforts on those
exports that present the greatest proliferation and national security risks and in
streamlining or eliminating controls that unnecessarily hamper trade. Legislation to
replace the expired Export Administration Act is essential to these efforts and to
bolstering BIS’ regulatory authority, stiffening penalties, and demonstrating America’s
commitment to a strong, effective system of export controls.




7
 According to the Export Administration Regulations, any release to a foreign national of technology or
software subject to the regulations is “deemed to be an export to the foreign national’s home country.”


                                                   11
Department of Commerce                               Office of Inspector General
                  March 2005 Top 10 Management Challenges



CHALLENGE 8

ENHANCE EMERGENCY PREPAREDNESS, SAFETY,
AND SECURITY OF COMMERCE FACILITIES AND
PERSONNEL
Tense international conditions have increased
America’s need to prepare for physical threats to U.S.
government      facilities  and    personnel.      For
Commerce—with more than 35,000 employees in
hundreds of facilities worldwide—the task of
safeguarding departmental personnel and property is
daunting. After our April 2002 report on the status of
Commerce’s emergency preparedness and security
programs identified significant vulnerabilities, we
added this issue to our list of top management
challenges.

During this reporting period, we began reviewing the
Department’s progress in addressing the concerns
raised in our 2002 report and examined several key
initiatives it has undertaken. Current policy assigns
Commerce’s Office of Security (OSY) responsibility
for overseeing and coordinating emergency
preparedness, but leaves primary responsibility for        The Department has assembled and
                                                           equipped teams of volunteer employees at
implementing site-specific measures with the bureaus       its facilities to implement evacuation
and facility managers. We found that OSY more than         procedures in case of an emergency.
                                                           Source: OIG.
tripled the number of risk assessments it conducted in
fiscal year 2004.

Our preliminary findings also indicate that the Department has improved building
security, access controls, and the response capabilities of its security guard forces. But we
have noted inadequate departmental guidance on implementing effective preparedness
programs and insufficient oversight of bureau compliance with established policies and
procedures, which may undercut its efforts. We will report the final results of this review
in our next semiannual.




                                             12
Department of Commerce                               Office of Inspector General
                  March 2005 Top 10 Management Challenges



CHALLENGE 9

CONTINUE TO STRENGTHEN MANAGEMENT
CONTROLS AND SYSTEMS     EXCERPT: Dec. 21, 2004, Transmittal
                                                    Letter for Circular No. A-123, Revised, from
Commerce has significantly improved its             the Office of Management and Budget
financial management over the past decade: it       Actions Required. Agencies and individual
has received unqualified opinions on its            federal managers must take systematic and
consolidated financial statements for 6             proactive measures to (i) develop and
consecutive years, implemented the Commerce         implement appropriate, cost-effective internal
Administrative Management System (now               control for results-oriented management; (ii)
                                                    assess the adequacy of internal control in
called Commerce Business Systems), and              federal programs and operations; (iii)
substantially complied with the Federal             separately assess and document internal control
Financial Management Improvement Act. These         over financial reporting consistent with the
successes reflect management’s commitment to        process defined in Appendix A; (iv) identify
and success at addressing the findings of           needed improvements; (v) take corresponding
                                                    corrective action; and (vi) report annually on
deficient internal controls and financial           internal control through management assurance
management systems identified in our audits         statements .
and other reviews.

Federal law requires agencies to prepare and disseminate financial information, including
audit reports on their financial statements, to enable Congress, agency executives, and the
public to assess an agency’s operational and program management and to determine
whether its financial management systems comply with legislative mandates. But reliable
financial reporting and effective, efficient program operations depend on strong internal
controls. And beginning in FY 2006 under the revised OMB Circular A-123, agencies
must assess internal controls over financial reporting; document those controls and the
assessment process; and provide an assurance statement on the effectiveness of internal
control over financial reporting in their annual Performance & Accountability Report.

We will continue to monitor a range of financial management issues, including the
Department’s efforts to implement the new A-123 requirements, improve internal
controls, and achieve other operating efficiencies identified in the annual audit
management letter. We will also continue to monitor the International Trade
Administration’s progress toward complying with OMB Circular A-25 requirements for
fully recovering the costs of products and services it provides, and the use of Commerce
Business Systems to conduct financial and budgeting operations.




                                            13
Department of Commerce                               Office of Inspector General
                  March 2005 Top 10 Management Challenges



CHALLENGE 10

CONTINUE TO IMPROVE THE DEPARTMENT’S
STRATEGIC PLANNING AND PERFORMANCE
MEASUREMENT IN ACCORDANCE WITH THE
GOVERNMENT PERFORMANCE AND RESULTS ACT
The basic tenet of GPRA is that measuring
                                                 EXCERPT: Government Performance
performance will inform funding decision-
                                                 Results Act of 1993
making and ultimately improve government
programming and spending. Performance            SECTION 2. FINDINGS AND PURPOSES.
budgeting—as implemented by OMB—is               (a) Findings. The Congress finds that-
based on a similar assumption: that by           (1) waste and inefficiency in federal programs
                                                 undermine the confidence of the American
putting performance information alongside
                                                 people in the government and reduce the
budget amounts, funding choices focus on         federal government's ability to adequately
program results and budget decision- making      address vital public needs;
improves. The success of either approach         (2) federal managers are seriously
relies on the quality of reported data.          disadvantaged in their efforts to improve
                                                 program efficiency and effectiveness, because
                                                 of insufficient articulation of program goals
Though the Department has strengthened its       and inadequate information on program
performance reporting under GPRA, our            performance; and
audits of six Commerce operating units           (3) congressional policymaking, spending
continue to identify the need for enhanced       decisions and program oversight are seriously
                                                 handicapped by insufficient attention to
internal controls to ensure that performance
                                                 program performance and results.
measures        are     appropriate      and
understandable, and reported data is
accurate and reliable for making funding
decisions.

The Department is reviewing its performance and data validation processes in response to
our findings and recommendations. It has developed a new quarterly monitoring process
that examines performance data and the measures themselves. The process requires
bureau under secretaries to attest to the validity of data and verify that the measures and
reported information accurately reflect a bureau’s accomplishments.

We are now conducting our ninth audit specifically aimed at performance measurement
and reporting—this time at the Minority Business Development Agency (MBDA). Our
earlier reviews of MBDA grant recipients found varying degrees of noncompliance with
performance guidance and inadequate management controls for ensuring that claimed
performance is accurate, properly documented, and occurs within specified time frames.
We have initiated a follow-up review of our prior audits to (1) assess bureau and
departmental efforts to address identified deficiencies and strengthen performance



                                            14
Department of Commerce                               Office of Inspector General
                  March 2005 Top 10 Management Challenges


measurement, and (2) determine whether additional efforts are needed to ensure that
reported performance results are reliable and meaningful.




                                        15
